<html>
<title> - ORGANIZATIONAL MEETING OF THE JOINT COMMITTEE ON THE LIBRARY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
      ORGANIZATIONAL MEETING OF THE JOINT COMMITTEE ON THE LIBRARY
=======================================================================




                         ORGANIZATIONAL MEETING

                               before the

                     JOINT COMMITTEE ON THE LIBRARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

             Hearing Held in Washington, DC, March 7, 2002

                               __________






                               __________


         Printed for the use of the Committee on Appropriations
                                ________

                           U.S. GOVERNMENT PRINTING OFFICE
80-006                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     JOINT COMMITTEE ON THE LIBRARY

               House                               Senate
VERNON J. EHLERS, Michigan,          CHRISTOPHER J. DODD, Connecticut,
  Chairman                             Vice Chairman
ROBERT W. NEY, Ohio                  CHARLES E. SCHUMER, New York
CHARLES H. TAYLOR, North Carolina    MARK DAYTON, Minnesota
STENY H. HOYER, Maryland             TED STEVENS, Arkansas
JIM DAVIS, Florida                   THAD COCHRAN, Mississippi























                         ORGANIZATIONAL MEETING

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                          House of Representatives,
                            Joint Committee on the Library,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:56 p.m., in Room 
S-219 The Capitol, Hon. Vern Ehlers [chairman of the committee] 
presiding.
    Present: Representatives Ehlers, Ney, Hoyer, and Davis, and 
Senators Dodd, Dayton, Stevens, and Cochran.
    Staff: Bill McBride, Kennie Gill, Bill Cable, Matt Pinkey, 
Barbara Wolanin, and Dan Mulhollan.
    Representative Ehlers. Let us call the meeting to order. I 
will do my best as the new chairman not to have this run so 
long that this becomes a dinner instead of a lunch. First of 
all, as a matter of the election of the chairman, which is done 
by poll, but without objection I will announce the results of 
the October, 2001, poll of the membership of the Joint 
Committee on the Library electing Representative Ehlers as 
chairman and Senator Dodd as vice chairman, and that has been 
approved by poll. So I hereby declare that.
    Representative Hoyer. So much for democracy, Mr. Chairman.
    Representative Ehlers. Well, you voted for me.
    Representative Ney. He comes from a Dutch background. They 
had a king over there.
    Representative Ehlers. The committee is called to order. 
Before we begin our business I would like to make a brief 
opening statement. I assure you it will be very brief.
    It is indeed an honor to me to accept this position. I have 
a deep love for libraries and a long history with them. First 
of all, I read. As a child, I read very heavily in the library 
and developed a great love for them. I served on the city 
library, the county library and the board of the Library of 
Michigan, the state library, and on this committee. I commented 
on that to a House member recently, who is a Catholic, and I 
said, well, I guess this will be the last one I serve on. And 
he said, well, I think I can probably get you on the Beckton 
Library, but I didn't think they would accept me.
    We are honored to serve on this committee. The Library of 
Congress is the jewel of the Capitol complex in many ways, the 
world's greatest repository of written and encoded language, 
and it is indeed an honor for all of us to serve on this 
committee and we will certainly do our best to discharge that 
responsibility well.
    If any other members request to make a statement, I will be 
happy to recognize them. Senator Dodd.
    Senator Dodd. First of all, congratulations for being 
chairman and I want to, and to have the record reflect it, 
thank the Library of Congress. This is the first opportunity we 
have had to meet since the events of last fall, and all of us 
here have asked to be here in one way or another and are very 
supportive of the work the Library does. I want to make special 
reference to Jim Belikove of the Library as well as Daniel 
Mulhollan of the Congressional Research Service and the many 
people who work with them for their tremendous job. And I also 
want to thank them, particularly Jim and Dan, for their support 
when the Senate office buildings closed. I mean they were 
asking could they help, how could they help serve the Senate, 
what space did we need? They just couldn't have been more 
supportive, and I want the record to reflect our deep sense of 
gratitude for the Library during those days. It meant a lot to 
us over here, and I know I speak on behalf of all of us in 
expressing our appreciation. So thanks to the Library and the 
CRS.
    Representative Ehlers. Thank you, and you expressed the 
opinion of everyone here. You have an agenda before you and, 
without objection, we will include the agenda as shown. Hearing 
no objection, so ordered.
    [The information follows:]



    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Representative Ehlers. The Chair laid before the committee 
a resolution adopting the committee rules for the 107th 
Congress. Only technical and no substantive changes made to the 
rules for this Congress. I have personally reviewed them and 
find them to be in order and ask your discussion.
    [The information follows:]



    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Senator Stevens. Mr. Chairman.
    Representative Ehlers. Yes.
    Senator Stevens. Do we normally adopt the House rules as 
the rules of the Joint Committee?
    Representative Ehlers. My understanding is that we adopt 
the rules of the body having the Chair.
    Senator Dodd. I am sure that what we would want to do is, 
for instance, we have a rule that the Vice Chair can call 
witnesses along with the minority. There is one distinction in 
that area. So I would just assume comity works here.
    Senator Stevens. I hope so. But if I may continue, there 
are some comments about expenditures and subject to paragraph 
so and so or clause so and so of the House rules. I have got to 
tell you I am sure you all work under very good rules for the 
House--and other things about public hearings according to 
clause 4, rule I of the House as far as public hearings or 
broadcasting the meetings. All I can say is all right, but I 
hope we don't get caught up in them by not knowing them. I have 
urged the staff to keep us informed if there is something we 
are doing that is not consistent with the House rules.
    Senator Dodd. I think what we ought to do, and I just make 
the suggestion, adopt these and then maybe ask the staff for a 
tenure because this is a joint committee and I think melding 
this is a way that is satisfactory to avoid the same kind of 
going back and forth all the time. It might be a good 
suggestion in the future.
    Representative Ehlers. That would certainly be appropriate 
and let us proceed with approving these and then I will direct 
the staff to----
    Senator Stevens. Could I make one observation?
    Representative Ehlers. Yes.
    Senator Stevens. It is interesting to note that the House 
rules are adopted every 2 years, fresh, brand new, ours were 
adopted in 1789, and they are still the rules. They can be 
amended, but it takes an extra-extraordinary charter to amend 
the rules. So it is assured continuity and stability over a 
long period of time so that no matter which party is in charge 
or which is in the majority, you can't just come in and change 
the rules of that body. The body has a continuance of the 
rules, and that is why I think the question Senator Stevens 
asked was very appropriate to ask. It is hard to keep up with 
what is the House rules and----
    Representative Ehlers. I think that is probably the 
objective. Let me just suggest that we follow the 
recommendation of Senator Dodd that we approve these, and 
directly after that I will instruct the staff to review the 
rules that were used under the Senate's chairmanship and 
compare them with the rules under the House chairmanship and 
see if we can't come up with a set of rules that actually is 
the independent----
    Senator Dodd. And in the meantime Senator Stevens is 
concerned we just have the staff checking each other to make 
sure we are not doing something that causes a----
    Representative Ehlers. And I will assure you of my desire 
as chairman to certainly accommodate any requests and comments 
from the Senate.
    The question is on the adoption of the rules presented. Any 
further discussion?
    All those in favor will say aye. Opposed?
    The rules are adopted, and I hereby with authority of the 
Chair ask the staff of both the House and the Senate to review 
the rules carefully and combine the best of the House rules and 
the best of the Senate rules into a permanent document.
    The next item on the agenda is a resolution on electronic 
support, and that relates to the comments that Senator Dodd 
made a moment ago about the assistance offered by the Library 
of Congress and CRS at the time of the anthrax disruption, and 
the Library of Congress and CRS have made some recommendations 
on that, they are working on that problem, and we have before 
us a resolution regarding electronic communication which will 
commend the Library and the CRS for their efforts and also lay 
out the direction and guidelines that we wish to proceed. So I 
will present these to you, and I will be happy to recognize 
Senator Dodd for a motion.
    [The information follows:]

             THE JOINT COMMITTEE OF CONGRESS ON THE LIBRARY

                    Committee Resolution 107-______

                        Electronic Communication

                        Adopted on ______, 2002

    Whereas, the Joint Committee on the Library commends the 
Congressional Research Service for its efforts to constitute to 
provide vital information support during periods when Members 
and staff were relocated to alternative work locations.
    Whereas further, the increased use of electronic tools for 
communication and education has resulted in increased 
requirements to serve Members and their staffs, including a 
recently concluded mobile information pilot with participants 
from the Senate, House and Library of Congress.
    Whereas further, the events of September 11th and the 
anthrax-related building closures have clearly shown that 
Congress needs to be served by a flexible and resilent 
infrastructure so that essential information needs can be met 
in a variety of ways.
    Be it therefore resolved, that the Library of Congress, as 
it develops and implements business continuity plans, ensures 
that the critical resources of the Library and the 
Congressional Research Service, including e-mail, web sites, 
and other support, be structured to be available to Members and 
staff regardless of their respective physical locations.
    Resolved further, that it be necessary to make CRS reports 
available to Members in a format which allows Members to 
efficiently provide for the public release of such reports via 
methods of the Members choice, including traditional methods as 
well as electronic posting and distribution.
    Resolved further, that the Congressional Research Service 
completes their on-going efforts to establish direct e-mail 
support between the CRS and Congressional Offices, with 
appropriate consideration to supporting individual Members with 
the tools and methods that they prefer, including support for 
information retrieval and communication with CRS analysts using 
wireless devices.
    Resolved further, that finally the Congressional Research 
Service and the Library of Congress are directed to report 
their plans and progress to the Joint Committee of Congress on 
the Library within 30 days of the adoption of this resolution.

    Senator Dodd. I think it is a good resolution. I recommend 
its adoption, and what it does in addition to what the chairman 
said is provide the electronic transmission of CRS information 
to Members of Congress, which will be very helpful to us.
    The one thing it doesn't do, which was the subject of some 
discussion the last time around, the issue of whether or not 
these reports ought to be made available to the public, and 
there was some concern about what that meant and the 
implications of it. This resolution does not embrace that 
suggestion. This is strictly to the Members of the Congress, 
the CRS information, as I understand it, as is crafted here.
    I think it is a good suggestion, and I also think it is 
wise to leave out the transmission of the public directive. 
This is a Congressional service and I think it will raise real 
issues about the value of all of this if we ended up doing 
that. There is nothing that restrains any Member of Congress 
from sharing it with the public, but having CRS to end up doing 
it would create some real problems.
    Senator Stevens. Can I ask a question about that? I came 
across a very interesting briefing on the war effort, an 
ongoing briefing on our website. Is that available to the 
public in general? Do you know?
    Mr. Mulhollan. If you are talking about the terrorism 
briefing book, that is only available to Congress.
    Senator Stevens. How is it that I can pull it down off the 
web?
    Mr. Mulhollan. Working with your office, anything you would 
like to have available--let me step back. The electronic 
briefing book only exists electronically. We can provide 
selective analyses that are referred to in the briefing book 
and get them on your website and we can work with you. In fact 
the Wills administration for a long time, for several years, 
has had reports that they would identify, and they are kept up 
to date, that they have placed on their website; for instance, 
on campaign finance, election reform. We could work with your 
office to have those reports on there.
    Representative Ehlers. Excuse me, but I believe the 
Senator's question is how can he get this on the web?
    Senator Stevens. How can I----
    Ms. Gill. It was off of the CRS website and it was one of 
the highlighted topics, terrorism.
    Senator Stevens. It was on a briefing book. Are those 
available to the public?
    Mr. Mulhollan. No, sir. It is available solely to Members 
of Congress and staff.
    Senator Stevens. But on your web?
    Mr. Mulhollan. On the CRS website.
    Senator Stevens. Can I pull those off at home?
    Mr. Mulhollan. If you are in your district office you can 
do it or if your office has arranged to have connection from 
there.
    Senator Stevens. It is e-mailed through our system?
    Mr. Mulhollan. Not e-mailed. It is direct contact with the 
Senate system itself, the Capitol Hill Internet.
    Senator Stevens. That is where I am coming from. We are 
spending more and more of our time at home, obviously in an 
election year. Can we pull it down, can we make arrangements to 
do that?
    Senator Dodd. You have a code by which you access it from 
your computer as a way to do that and then your computer pops 
up the screen with the codes you have, the same as it would 
be----
    Representative Ehlers. It is a secure document. It is on 
the Internet of the Capitol. You can access it from any 
computer on the Capitol grounds or in your home district. If 
you want to do it from your home, you have to get the code.
    Mr. Mulhollan. But you can do that?
    Representative Ehlers. You can do it.
    Senator Stevens. Another question, can we get an index of 
those things that are published so that we don't have to go 
through the web to pull them all down? Can we go to this 
website through this connection and find out what is there?
    Mr. Mulhollan. Yes. On the CRS website you can immediately 
put in a topic and it will pull up----
    Senator Stevens. I want to pull up a list of all the topics 
that are there and decide which ones I want. Can I do that?
    Mr. Mulhollan. Yes. On the website we have analyses by 
issue of the 150 issues that are on the House and Senate's 
agenda for this session.
    Senator Stevens. It was the best one I have ever seen on 
the war.
    Senator Dodd. The CRS website is a fabulous service, a 
great service.
    Representative Ehlers. We all appreciate their efforts, and 
the resolution before us will in fact strengthen the 
relationship in electronic communication between the CRS and 
the Members.
    Senator Dodd. I so move the resolution.
    Representative Ehlers. The resolution is moved by Senator 
Dodd, supported by Representative Ney. Any further discussion 
on the resolution?
    Hearing none, we will call for the vote. All those in favor 
will say aye. Those opposed, no.
    The resolution is adopted. There are a few minor technical 
changes we have to make. In fact we will deal with that right 
now. I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee at today's meeting.
    Senator Dodd. So moved.
    Representative Ehlers. Without objection, so ordered.
    Moving on to the agenda item four, correspondence, we have 
a letter from the State of Alabama requesting that they be 
allowed to replace their statue, and the material is in your 
folders.
    Senator Dodd. They want to change their statue.
    Representative Ehlers. They want to replace the statue of 
Jabez Lamar Monroe Curry to a statue Helen Keller, and there is 
a request to us for permission to begin that process. They do 
not have another statue ready to be placed.
    It will take some time to appoint a study committee to 
prepare recommendation on the statue and then build the statue 
and then ship it here. This is merely a request for them to 
begin that process.
    Senator Dodd. They also have to pay for the removal; isn't 
that it?
    Representative Ehlers. They pay for the removal and the 
replacement and the statue, yes.
    Senator Dodd. Senator Durbin for one and others may have 
brought this up about ways in which to recognize States and, as 
I understand it again, every State has to pay too and I guess 
this is how it has worked over the years. They pay for it to 
come down and so forth.
    With the construction of the new visitors center, and so 
forth, there has been a suggestion to also provide some way to 
continue to reflect--in some ways we are looking at figures of 
our States that date back--in my case it is Jonathan Trumble 
and Roger Sherman, who were here in the founding of the 
Republic, no intention of moving them, and also there have been 
people in the 19th and 20th century who we would like to 
recognize in some way.
    The suggestion has been to think about some ways States 
might be able to do that in the visitors center, not 
necessarily statues but some way to think about an idea that 
would incorporate more--we wouldn't want to double the numbers 
of the weight. I was told by the architects that it would 
create serious problems to the structure to have these large 
statues, but we could take a look at the visitors center and 
see how we might accommodate additional contributions to it 
from our States. I don't make that as part of this. I just----
    Representative Ehlers. I understand. There are going to be 
a number of decisions that are left to be made on the visitor 
center. That certainly is an appropriate one. Let me also 
comment that this approval will be the first case which will 
operate under the law which this committee supported and passed 
by the 106th Congress, Public Law 106-554, which establishes a 
procedure for a State to replace its statues. It had never been 
in law before, and this makes it more straightforward and 
spells out exactly what the requirements are.
    The motion to approve the placement of a new statue and 
removal of the old one in the State of Alabama is a motion that 
has been made by Senator Dodd.
    Senator Dodd. Does that require that there be some 
additional steps taken, that they need someone from the State 
of Alabama that agreed to do it? They have agreed to pay and do 
all that stuff----
    Representative Ehlers. Yes. Are there any further questions 
on----
    Senator Dayton. Mr. Chairman, do we still have the 
discretion to decide whether or not to approve the State's 
request or not? Is there any criteria----
    Representative Ehlers. We still make the decision whether 
or not to approve, but not the statue. We approve whether or 
not they----
    Senator Dayton. And is there any direction under the law or 
tradition in terms of whether or not to grant that approval?
    Representative Ehlers. This is the first case in which it 
has been approved. It has always been on an ongoing basis 
before. This sets down very clearly what the----
    Senator Dodd. It says clearly the procedures and also what 
they have to do to be eligible for us to approve it, but it 
doesn't set any criteria by which we make the decision whether 
or not to grant that approval other than the fact they have 
made met these requirements.
    Representative Ehlers. That is correct.
    Senator Dayton. Is it tradition to defer to the States' 
prerogative here, they make the decision about replacing 
somebody, or are we responsible for exercising any independent 
judgment?
    Representative Ehlers. I am not familiar with the history 
of that, but I suspect we give general leeway to the States, 
except I assume if California would decide they want to place a 
statue of John Walker for his actions in Afghanistan we might 
reject the----
    Senator Stevens. Beyond that we put some time frame on it, 
as I recall. You can't do it every year----
    Representative Ehlers. Ten years.
    Senator Dodd. The Curator's office, why don't you tell us?
    Ms. Wolanin. The subject of the statue is up to the State. 
So no one in the joint committee as far as I know has ever----
    Senator Dodd. The point being if all of a sudden a southern 
State decided to set someone up and the Governor signed it and 
it is highly objectionable, I assume we would have some ability 
here to say no. Are you suggesting we----
    Ms. Wolanin. I am just saying there isn't a historical 
precedent for it. Like Jefferson Davis, it didn't get accepted 
for many, many years.
    Representative Hoyer. Well, the statute says, Mr. Chairman, 
that we have got to approve their request, which is what we are 
doing here. They have suggested Helen Keller is the person they 
are going to send the statue of in replacement for Mr. Curry.
    Senator Dodd. I feel a little bad for him. I don't know if 
I should or not.
    Senator Dayton. We are not instructed to approve it?
    Representative Ehlers. No. We have the choice and that is 
what is before us at this point.
    Senator Dayton. No. I just wanted to know if----
    Representative Ehlers. There are----
    Representative Hoyer. What do you have against Helen 
Keller, Senator? This is going to be a hot debate.
    Representative Ney. Technically they don't have to submit 
drawings before they send it; right?
    Representative Ehlers. No. But they have to meet certain 
standards of the construction, of weight and so forth.
    Okay. Let us return to----
    Representative Hoyer. Mr. Chairman.
    Representative Ehler. Yes, Representative Hoyer.
    Representative Hoyer. Thank you. Mr. Chairman, in the 
letter that I am reading from Alabama, they do not address 
specifically the requirements in the statute in terms of 
payment. I presume that is presumed in the motion.
    Representative Ehlers. That is presumed because that is 
current law.
    Representative Hoyer. Right. Secondly, the disposition of 
Mr. Curry, is it our presumption that the State would take 
Curry back?
    Senator Dodd. He goes back home.
    Senator Stevens. Take it back at their expense and on our 
schedule, yes.
    Representative Ehlers. Any further discussion? Hearing 
none, we will call for the vote.
    All those in favor of approving the replacement of one of 
the Alabama statues will say, yes.
    Those opposed, nay.
    The motion is approved.
    Are there other items of correspondence?
    Just for information, regarding the tunnel between the 
Madison Building and the Cannon Office Building which the 
Capitol Police decided to not be staffed, and the tunnel has 
been closed for some time, this has created great inconvenience 
for the Library and for the Congress because any materials 
coming from the Library had to then go to the off-site area to 
be checked and then brought into the Congress after being 
checked, a 3-day process, which is very exasperating to the 
Library staff but especially to the Congressional staff when 
they requested written materials to be delivered. In the 
interim before we were able to have this meeting, I directed a 
letter to the House Sergeant at Arms stating that it was 
essential the tunnel be opened and, if necessary, the Library 
would provide one of their security guards to man the station 
in the tunnel, and it is now open again, and I understand the 
Library staff was very appreciative of that.
    I must express concern that it was ever closed in the first 
place, and I am also disappointed that the Library has to 
provide their own staff for that tunnel. I just hope that the 
Capitol Police and the Sergeant at Arms would see a need for 
that and do it on their own, but be that as it may, it is now 
open and operating.
    Another aspect, incidentally, of the Capitol Visitor Center 
is that they are attempting to add a plan to direct a tunnel 
over to the Madison Building from the Capitol, which there will 
be a need for that particular tunnel and it might serve our 
visitors and especially the staff. So that is simply for 
information that I sent that letter as a result of inaction, 
and the Library staff is extremely happy with that and so is 
the Congressional staff.
    Is there any other business?
    Representative Hoyer. Mr. Chairman, I would just make the 
observation it is my understanding from staff that this is open 
for Members and staff only.
    Representative Ehlers. Yes. It is not for the public.
    Representative Hoyer. So the point being it is less of a 
security concern because of that restriction.
    Representative Ehlers. Right. I have been informed there is 
a new tunnel supposed to go to the Jefferson Building. The idea 
is to get more visitors in the Jefferson Building. There is 
already a tunnel from the Jefferson Building to the Madison 
Building, but it is extremely difficult to find it, however. We 
need direction signs.
    That ends the consideration of the agenda, except for other 
business. Are there any items of business which anyone wishes 
to raise at this time?
    Senator Dodd. Mr. Chairman, and Kennie, why don't you help 
me out? The Botanic Gardens Conservatory construction----
    Representative Ehlers. That was pulled from the agenda. It 
was too preliminary to----
    Senator Dodd. Does that go for the Book Festival issue as 
well?
    Representative Ehlers. Yes. That has actually been taken 
care of. I addressed a letter to the Architect to take further 
action on that because we weren't going to take our time to 
consider it. It just was not presented well.
    So if there is no other business before the body, I want to 
thank you all for your attention, and the meeting stands 
adjourned.
    [Whereupon, at 3:21 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
